Audit Report



Return
    to the USDOJ/OIG Home Page




Compliance with Standards Governing Combined DNA Index System Activities at the Georgia Bureau of Investigation Division of Forensic Sciences LaboratoryDecatur, Georgia

Report No. GR-40-04-006


June 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Georgia Bureau of Investigation, Division of Forensic Sciences Laboratory (Laboratory).1  The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990.  The DNA Identification Act of 1994 (Public Law 103-322) formalized the FBI's authority to establish a national DNA index for law enforcement purposes.  The Act specifically authorized the FBI to establish an index of DNA identification records of persons convicted of crimes, and analyses of DNA samples recovered from crime scenes.  The Act further specified that the index include only DNA information that is based on analyses performed in accordance with standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically.  The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level.  The NDIS became operational in 1998 and is managed by the FBI as the nation's DNA database containing DNA profiles uploaded by participating states.  DNA profiles originate at the local level, flow to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other.
The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis.  A laboratory's profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.  Before a laboratory is allowed to participate at the national level a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory.  The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.2
The objective of the audit was to determine if the Laboratory was in compliance with standards governing CODIS activities.  Specifically, we performed testing to determine if the:  1) Laboratory was in compliance with the NDIS participation requirements; 2) Laboratory was in compliance with the quality assurance standards issued by the FBI; and 3) Laboratory's DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the Laboratory was in compliance with the standards governing CODIS activities for the areas we tested except for the following.

One of the Laboratory's 13 CODIS users had not completed the annual reminder form at the beginning of calendar year 2003 as required by the NDIS participation requirements to ensure that each CODIS user is annually reminded of the categories of DNA data accepted at NDIS.  This omission was corrected during our audit fieldwork conducted at the Laboratory in December 2003.


The case files for 40 of the 100 forensic DNA profiles we reviewed did not include documentation that technical reviews had been completed on the scientific work as required by the FBI's Quality Assurance Standards for forensic DNA testing.  According to the Laboratory CODIS manager, a contractor used by the Laboratory to scan paper files into an electronic record system discarded the documentation evidencing that technical reviews were completed.


Of the 200 DNA profiles reviewed (100 forensic and 100 convicted offender), we found that 4 forensic profiles in CODIS were incomplete and for another forensic profile, the case file did not include supporting documentation to allow us to determine whether the profile in CODIS was a complete and accurate record, and allowable for inclusion in CODIS databases.  Laboratory officials immediately corrected the incomplete profiles after we brought the matter to their attention.

We made four recommendations to improve the Laboratory's compliance with standards governing CODIS activities, which are discussed in detail in the Findings and Recommendations section of the report.  Our audit scope and methodology are detailed in Appendix I of the report and Appendix II of the report lists the audit criteria.
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable.


Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life.  Approximately 99.9 percent of human DNA is the same for all people.  The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual.  This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS.  For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.